                            CLOSEOUT FOR M-94-120040

       OIG received allegations from the complainant1 in a 9 November 1994 letter
addressed to NSF's Deputy Director (DD), a copy of which was forwarded to our office by
the DD. In this letter, the complainant requested a reconsideration of his declined NSF
proposal (earlier proposal).2 The complainant, who had submitted his earlier proposal to an
NSF program's targeted competition: claimed that the group that reviewed his earlier
proposal was composed of dishonest ad hoc reviewers and panelists. He alleged that the
group, through the auspices of the NSF program, served the special interests of industry and
academia in advancing a failed " t e ~ h n o l o ~ yand,
                                                     " ~ because his earlier proposal "contained
preliminary but extremely damaging information" about the "technology," the group had a
conflict of interests in reviewing his proposed project. Further, the complainant said that the
same group, who declined his earlier proposal, supported another proposal on the
"technology" submitted by the subjects with three co-PIS. The complainant alleged that the
subject's proposal was funded as a result of the group's conflict of interests: both the group
and the subject supported the "technology." The complainant alleged that the subject, as well
as others, were responsible for the continued "fiaudulenty~research conducted at several
private and government facilities6 that supported the development of the "technology." The
complainant alleged these activities were "fraudulent" because, even though, for example, the
subject knew the "technology" did not work, he still continued to encourage its development
using government funds. The complainant also expressed concern about the prompt reporting
                                                                                                   I
of research data compiled by the subject and his co-PIS from their NSF proposal to the
National Databases, organizations supported by NSF to maintain a comprehensive resource
database of specialized and updated research information. Finally, -thecomplainant expressed
his concern about the proper handling of another of his NSF proposals, hereinafter the later
proposal.7




                                         Page 1 of 3                                   M 94-40
                            CLOSEOUT FOR M-94120040

        The complainant requested reconsiderations by the cognizant Assistant ~irector*  (AD)
and subsequently by the DD. The AD's reconsideration determined that the three ad hoc
reviewers of the complainant's earlier proposal were experts in the field, representing an
             firm, a university and a national laboratory. The AD's reconsideration upheld the
declination and concluded that the complainant's earlier proposal had been fairly and properly
handled. The DD7s reconsideration determined that none of the ad hoc reviewers had an
apparent "conflict of interest or other source of bias with respect to the" complainant. It
stated that the complainant's earlier proposal lacked a clear research plan and was generally
inadequate. Finally, it stated that there was evidence that the complainant "may have already
come to a conclusion about the result of the proposed research." The DD concluded that the
complainant's earlier proposal had been processed and evaluated fairly and upheld the
declination decision.

        Prior to this present inquiry, OIG conducted an inquiry into allegations of misconduct
in science brought to our attention by the complainant that were related to concerns about the
"technology." In the previous inquiry, the complainant alleged that scientists affiliated with
several institutions falsified research results for the "technology."         In addition, the
complainant alleged that, after he completed a one-year standard NSF grant that focused on
the "technology," he was denied further funding because of NSF program mismanagement of
his proposal and because of NSF reviewers' retaliation against him. The allegations in the
earlier inquiry were determined to have no substance and the case was c10sed.~As part of the
earlier inquiry, OIG learned that the complainant was involved in a scientific dispute with
other researchers regarding the potential effectiveness of the "technology."

        In the present inquiry, the complainant's main concern again focused on NSF7s
continued support of research associated with the "technology." First, the group referred to
by the complainant as having a conflict of interests in reviewing both his earlier proposal and
the subject's proposal consisted of 12 panelists and 2 ad hoc reviewers common to the
consideration of both proposals. In addition, each proposal was reviewed by one additional
ad hoc reviewer that was different. The group included scientists and engineers from the
academic, federal and private sectors. OIG could find no evidence that suggested that
members of the group were united in support of the "technology." OIG reviewed information
about the subject, the subject's co-PIS, and the complainant, such as their work affiliations,
their collaborators and their co-authors on recent publications, and could find no evidence of
an actual or apparent conflict(s) of interests between any of them and the members of the
groups that considered either proposal. OIG concluded that there was no substance to any of
the complainant's allegations of conflict(s) of interests or bias associated with the
consideration of either proposal.

       OIG determined that the subject's active involvement with the continued study of the
"technology" was not "fraudulent" as alleged by the complainant. The continued reevaluation




                                           Page 2 of 3
                            CLOSEOUT FOR M-94120040

of the "technology" is part of a common process associated with the development and
improvement of technologies in general. OIG concluded that this allegation involved a
scientific difference of opinion between the complainant and the subject and, as such, was not
   issue of misconduct in science. Further, OIG reviewed the complainant's similar concerns
about other scientists conducting research on the "technology." Similar to the conclusion in
the earlier inquiry (M-93 120066)' OIG concluded that the complainant's concerns about the
"technology" were related to a substantive scientific dispute with these other scientists. OIG
concluded that his concerns were programmatic matters and best addressed through the
scientific debate that is part of the NSF proposal submission and review process.

        OIG reviewed the complainant's concern that the subject and his co-PIS failed to
submit research results fiom their NSF award to the National Databases. The award letter
"encouraged" rather than required the subject and his co-PISto provide this information to the
National Databases. NSF provides support for the organizations that manage these
Databases, but does not place specifications on its PIS or the Database organizations about the
style, collection, or timeliness of reports that are submitted to them. We uncovered no
concern that could be considered to be misconduct in science and determined that, in this
case, this is an administrative issue and not an issue of misconduct in science.

        With respect to the complainant's concern that his later proposal was mishandled by
the NSF program because he had not received copies of any ad hoc reviews, OIG learned that
the program had declined the complainant's later proposal because it was substantially similar
to previously declined proposals10he had submitted to the program. The program reviewed
the later proposal internally. NSF Manual #I0, Proposal and Award Manual, section 122.3,
states that "[tlhe Foundation prefers that all proposals be reviewed by four to eight reviewers.
When fewer than three written reviews . . . constitutes the external peer review, a justification
for recommending action on this basis is given on NSF Form 7, 'Review Record,' or its
equivalent." The Form 7 in the later proposal's program jacket stated that the proposal was
"[elxempt from peer review in reference to NSF Manual 122.3 . . . ." Attached to the Form 7
is a copy of a FAX to the complainant discussing the similarity of his earlier declined
proposals. Further, the Grant Proposal Guide (NSF 95-27, page 15) states that for a declined
proposal, if the "explanation does not satisfjr the PI, helshe may request additional information
fiom the cognizant Program Officer." NSF's declination letter to the complainant stated that,
if he "would like any more information about [the] declination" he should "contact the
program officer" involved. OIG determined that, in this case, the review of the complainant's
later proposal was appropriate.
       This case was closed and no further action will be taken.

cc: Staff Scientist, Attorney, AIG Oversight, IG




                                            Page 3 of 3                                 M 94-40
